WAIVER

Supreme Court of the United States

No. 21-5695
Nicholas Stewart Hines v. Denny Kaemingk, Secretary, South
Dakota Department of Corrections, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
O Tam filing this waiver on behalf of all respondents.

eI only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Defendent Jody Johnson 1, Vankton County
Clerle of Courts

Please check the appropriate box:

@ Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

Q Jam not presently a member of the Bar of this Court. Should a response be requested, the
response will he-filed by a Bar member. (Filing Instructions: Mail the original signed form

to: Supreme our}, Ati erly: fice, 1 First Street, NE, Washington, D.C. 20543).
Signature

pate OF/2Y 1202 |
(Type or print) Name Robert R. Anderson

Mr. OMs. OMrs. O Miss
Firm Masy,,Acam, Gerdes & Thompson LLP
Address 563 S Prerre St, P.O. Box [bO
City & State Ferre , SD tip. 82901-0100

Phone (ws \RAY- BRO Email_ Tha @® mayadam. net

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

ee: Nicholas Stew Hines
YIO Walnut St, Ste 104
Yankton, SD 51018

 
      
 

 

 
